Department of Homeland Security
   Ofﬁce of Inspector General

      Immigration and Customs Enforcement 

            Policies and Procedures 

          Related to Detainee Transfers





OIG-10-13                           November 2009
                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                     November 10, 2009

MEMORANDUM FOR: 	            John T. Morton
                             Assistant Secretary
                             U.S. Immigration and Customs Enforcement


FROM: 	                      Richard L. Skinner
                             Inspector General

SUBJECT:	                     Letter Report: Immigration and Customs Enforcement
                              Policies and Procedures Related to Detainee Transfers
                              (OIG-10-13)

We reviewed Immigration and Customs Enforcement (ICE) detainee transfer policies and
procedures in response to a request from nongovernmental organizations. These
organizations reported that some transfers have not complied with ICE National
Detention Standards and have created hardships for detainees. Our objective was to
determine whether ICE detention officers properly justify detainee transfers according to
ICE’s standards.
Transfer determinations made by ICE officers at the detention facilities are not conducted
according to a consistent process. This leads to errors, delays, and confusion for
detainees, their families, and legal representatives. Communication and coordination
with the Department of Justice’s Executive Office for Immigration Review (EOIR)
immigration courts regarding detainee status can also be improved to eliminate confusion
and delays. We are recommending that ICE establish a national standard for reviewing
each detainee’s administrative file prior to a transfer determination, and that it develop
protocols with EOIR court administrators for exchanging hearing and transfer schedules.
The report contains two recommendations. ICE concurred with both recommendations.
The full text of ICE’s comments can be found in Appendix B. Within 90 days of the date
of this memorandum, please provide our office with management’s official response to
the final report. The response should indicate corrective actions planned or taken; other
supporting information; and, where appropriate, dates for achieving actions and the
official responsible for implementation of the actions.
We trust our recommendations will be of assistance as you conduct detention and
removal operations and provide custody management during removal proceedings.

Should you have any questions, please call me, or your staff may contact
Carlton I. Mann, Assistant Inspector General for Inspections, at (202) 254-4100.
Background
The Immigration and Customs Enforcement (ICE) Office of Detention and Removal
Operations (DRO) is responsible for arresting, detaining, and removing inadmissible and
deportable noncitizens (aliens) from the United States. This includes aliens who are
inadmissible or removable under the Immigration and Nationality Act (INA), guilty of
certain crimes, in violation of the status in which they were admitted to the United States,
or who have final orders of removal. Under the INA, certain inadmissible or removable
aliens are subject to mandatory detention. Those not subject to mandatory detention may
be detained, paroled, or released on bond or recognizance until a removal determination
is complete.

Since its creation in 2003, ICE has detained more than 1.7 million individuals. ICE
estimates that during FY 2009, more than 442,000 detainees will spend time in ICE
custody, more than double its first year of operations. ICE transfers detainees to other
detention facilities to prepare for final removal, reduce overcrowding, or meet the
specialized needs of the detainee. Recently, the number of detainee transfers has
increased because of insufficient bed space in some facilities. Most detainees transferred
owing to overcrowding are sent from eastern, western, and northern state detention
facilities to locations in the southern and southwestern United States. In FY 2008, ICE
had an average daily detention population of 31,244. Currently, ICE has a total bed
capacity of 33,400 through use of its own service processing centers, contracted facilities,
and local jails under Inter-governmental Service Agreements.

ICE National Detention Standards outline the policy, applicability, standards, and
procedures for the transfer of a detainee. ICE must consider the detainee’s security
requirements, medical needs, legal representation, and requests for a change in venue for
the removal proceeding.1 The detention standards state that ICE shall consider
alternatives to transfer, especially when the detainee is represented by legal counsel and
where immigration proceedings are ongoing. Legal representatives are required to notify
ICE and the immigration court that they are the alien’s legal counsel or representative.2
The standards require that ICE notify the detainee’s legal counsel no later than 24 hours
after a transfer to another detention facility.

The Notice to Appear informs the alien of the reasons for arrest, the right to
representation by counsel at no cost to the government, and the time and location of a
removal proceeding. According to federal regulations, DRO must determine within
48 hours of an alien’s arrest whether to issue a Notice to Appear and warrant of arrest and
whether the alien will remain in custody or be released on bond or recognizance. In
addition to the reasons for arrest and right to representation, a Notice to Appear must
contain proof that the alien received the Notice to Appear, confirm that the alien received

1
  On September 12, 2008, ICE introduced new Performance-Based National Detention Standards and was
implementing these new standards at detention facilities over a 12 month period.
2
    For ICE, this is Form G-28; for the Executive Office for Immigration Review, this is Form E-28.



                                                      1
a list of free (pro bono) legal services available in the district where the hearing will be
held, and indicate the immigration court in which it is filed. At ICE’s discretion, the
Notice to Appear may indicate that the notice of the time and place of the removal
proceeding will be given to the respondent once ICE has filed the Notice to Appear with
an immigration court.

Filing the Notice to Appear with the immigration court establishes jurisdiction for the
removal proceeding. ICE is not required to file the Notice to Appear with the
immigration court within a specified time after it has been served. ICE may decide for
operational or other reasons to transfer a detainee from the jurisdiction where the detainee
was arrested to a detention facility outside of that jurisdiction. For those detainees, ICE
files the Notice to Appear with the immigration court that has jurisdiction over the
receiving detention facility.

Immigration judges from the Department of Justice’s (DOJ) Executive Office for
Immigration Review (EOIR) conduct removal proceedings. Detainees and legal counsel
have the right to examine evidence against them, present evidence, and cross-examine
witnesses. Detainees may challenge their detention by requesting that an immigration
judge with jurisdiction over the place of detention review and reassess ICE’s custody or
bond determination. Aliens determined to be inadmissible or removable may apply to the
immigration court for relief, and may appeal a removal order with the DOJ Board of
Immigration Appeals or the United States Court of Appeals. In FY 2008, 220 judges
assigned to 56 immigration courts received 291,781 cases. An increase in cases and only
a modest increase in immigration judges has created case backlogs and longer detainee
wait times for proceedings. Because of the high case volume and logistical issues, many
detainees appear before the court via a videoconference link from their detention facility.

Results of Review

ICE/DRO Can Improve the Detainee Transfer Process

A detainee’s Alien File (A-File) is an important part of the transfer process. The A-File
contains information regarding the detainee and his or her movement through the
detention process. ICE detention officers review documentation in an A-File to make a
determination regarding a detainee transfer. ICE detention standards state that, before
transferring a detainee, ICE “shall consider alternatives to transfer, especially when the
detainee is represented by legal counsel and where immigration proceedings are
ongoing.”

Detention officers at five ICE Field Offices we visited do not consistently determine
whether detainees have legal representation or a scheduled court proceeding when
transferring detainees. EOIR judges and ICE detention officers in transferring
jurisdictions and the judges and officers at receiving facilities said detainees with legal
representation and scheduled court proceedings are being transferred to detention
facilities outside of the scheduling court’s jurisdiction. At one location, court and
detention officers estimated that this occurs at least once a week.


                                              2
ICE officials said that the transfer of detainees who already have a scheduled court
hearing occurs because ICE has not received the EOIR notification of the detainee’s
scheduled court appearance. ICE officials also said that inadvertent detainee transfers
occur when the detainee’s legal counsel submits a request for a custody or bond hearing
with the immigration court before submitting a Form G-28, Notice of Entry of
Appearance as Attorney or Representative, which announces the detainee’s legal
representative. In these cases, ICE said it is not aware that a detainee has legal
representation or a scheduled court appearance at the time of transfer.

The detention officers we interviewed were knowledgeable of the ICE detention
standards. However, they were not consistently given written guidance regarding what
specific information to assess in the detainee’s A-file before making a transfer
determination. ICE officials said that, based on geographic and other factors, directors of
ICE Field Offices have discretion regarding the guidance and procedures they use to
manage detainee transfer determinations. Transfer determinations at the ICE Field
Offices we visited were not consistent. This has resulted in detainees being transferred
without required A-File documentation, or with pending or outstanding warrants,
criminal prosecutions, or custody determinations. ICE officers told us that some
transferred detainees arrive at facilities:

         •	 Without being served an NTA;
         •	 Without proper security classification;
         •	 With active arrest warrants in the previous jurisdiction;
         •	 With pending criminal prosecutions in the previous jurisdiction;
         •	 With final orders for removal that are past 90-day deadlines;
         •	 With 6-month post-removal-order custody determinations that are past
            deadlines;
         •	 With a high probability of being granted bond;
         •	 With incomplete A-file documentation, including files without detainee
            photographs or conviction records; and
         •	 With late or no notification of the transfer location to the immigration court
            or the detainee’s legal representative.

Staff at ICE Field Offices receiving transferred detainees said that the receipt of
incomplete A-Files has led to errors, delays, and confusion for detainees, their families,
legal representatives, and the EOIR courts. When the detainee’s location changes, Notice
to Appear information on court proceedings and legal services becomes outdated or
incorrect. Transfers may also create delays in filing the Notice to Appear with an
immigration court, prolonging the time the detainee remains in detention.

Detainees transferred with scheduled court appearances have their proceedings
(1) rescheduled to a date after the detainee is returned to the original court’s jurisdiction;
(2) conducted in absentia or by videoconference; or (3) withdrawn by legal counsel and
re-filed in the jurisdiction where the detainee is currently being held. Returning detainees
to the jurisdictions where a Notice to Appear was first served or re-filing bond or custody


                                              3
determinations creates unnecessary cost and additional time in detention. Officials at one
Field Office estimated that they return detainees to the sending jurisdiction two or three
times per week.

When ICE transfers detainees far from where they were originally detained, their legal
counsel may request a release from representation because the distance and travel time or
cost make representation impractical. Transferred detainees have had difficulty or delays
arranging for legal representation, particularly when they require pro bono representation.
Difficulty arranging for counsel or accessing evidence may result in delayed court
proceedings. Access to personal records, evidence, and witnesses to support bond or
custody redeterminations, removal, relief, or appeal proceedings can also be problematic
in these cases.

In June 2008, after detainees’ legal representatives informed the Philadelphia Field Office
director of concerns regarding transfers, the office developed a written protocol to guide
transfer decisions. The protocol establishes that:

       •	 Notices to Appear for aliens detained in the ICE Philadelphia Area of
          Responsibility and held in York, PA, will be served at the York EOIR court.
          ICE will not transfer these detainees prior to a judge’s decision.
       •	 Detainees from the ICE Philadelphia Area of Responsibility with final orders
          of removal will be held in York, PA, when the detainee has:

               1.	 Ties or family in the ICE Philadelphia Area of Responsibility.
                   Detainees considered to have ties include those who are legal
                   permanent residents or have local residences, employment, or
                   relatives;
               2.	 An attorney of record with Form G-28 on file; or
               3.	 Pending hearings, or when detainees are eligible for bond and there is
                   a high probability that EOIR will grant bond.

The Philadelphia Field Office director, a representative from the legal community, and
EOIR personnel said this protocol has helped eliminate many of the problems regarding
detainee transfers. ICE officers who process detainees at later stages in the transfer
process said that, as a result of this protocol, required documentation is less frequently
missing from Philadelphia Field Office A-files. This protocol could serve as a best
practice for all ICE Field Offices to ensure a standard A-file review prior to detainee
transfer.

Some immigration courts and Field Offices have developed localized methods of
communication and coordination for custody hearings and detainee transfers. Under
these arrangements, EOIR provides ICE staff with court docket calendars that list all
custody hearings. When notified in advance, ICE can cancel transfers of detainees with a
scheduled hearing. ICE also provides courts with lists of detainees scheduled for
transfer. This helps avoid scheduling custody hearings for detainees who are in the
process of transfer to another facility.



                                             4
Recommendations
We recommend that the Assistant Secretary, ICE:

Recommendation 1: Establish a national standard for reviewing A-files prior to
transferring a detainee.

Recommendation 2: Implement a policy requiring Field Offices to develop protocols
with EOIR court administrators for exchanging custody hearing and detainee transfer
schedules.

Management Comments and OIG Analysis
We obtained written comments on our draft report from the Director of the ICE Audit
Liaison Office and made changes where appropriate. We have included a copy of the
written comments in Appendix A.

ICE concurred with both of our recommendations. ICE intends to publish two advisories
to all Field Office Directors: (1) to ensure the most current information pertaining to the
detained alien is forwarded to the receiving law enforcement official in accordance with
National Detention Standards; and (2) to reinforce the need to coordinate with EOIR
court administrators. We consider both recommendations resolved and open.

The intent of recommendation 1 is to ensure that ICE conducts a consistent and thorough
review of the most current information pertaining to the detainee prior to a transfer
determination. Therefore, in its planned advisory, ICE should stress that the detention
officer responsible for the transfer determination will require the detainee’s most current
information in order to make the decision to transfer the detainee.

ICE plans to publish an advisory from the DRO Director to Field Office Directors to
satisfy the intent of recommendation 2. The advisory will reinforce the need for Field
Office Directors to coordinate with EOIR court administrators. The advisory should
stress the need for a regular exchange of timely and accurate information useful to both
ICE and EOIR. We agree with ICE that information sharing with EOIR should take
place after considering and the detainee’s physical safety and any law enforcement-
related security interests.

ICE should provide the OIG with the full text of the advisories once they are published.




                                             5
Appendix A
Purpose, Scope, and Methodology

                  We reviewed U.S. Immigration and Customs Enforcement (ICE)
                  Office of Detention and Removal policies and procedures related
                  to transferring detainees in response to a request from
                  representatives of nongovernmental legal organizations. These
                  organizations reported that ICE does not adhere to its detention
                  standards when transferring detainees. They contend that such
                  transfers disrupt and delay removal proceedings, creating hardships
                  for detainees.

                  Our objective was to determine whether immigration detention
                  facilities properly justify detainee transfers according to ICE’s
                  Detention Operations Manual.

                  We performed fieldwork from October 2008 to February 2009.
                  We visited ICE Office of Detention and Removal Field Offices in
                  Washington, DC; Philadelphia, PA; Newark, NJ; New York, NY;
                  and San Antonio, TX. We visited and observed operations at
                  detention facilities in New York, NY; Elizabeth, NJ; York, PA;
                  and Pearsall, TX. We visited administrative offices and observed
                  immigration proceedings at Department of Justice Executive
                  Office of Immigration Review (EOIR) immigration courts in New
                  York, NY; Elizabeth, NJ; York, PA; and San Antonio, TX. During
                  these visits, we interviewed and collected data from ICE Field
                  Office directors, ICE detention and deportation officers and staff,
                  EOIR immigration judges and court administrators, government
                  lawyers, and immigration attorneys representing detainees.

                  We conducted our review under the authority of the Inspector
                  General Act of 1978, as amended, and according to the Quality
                  Standards for Inspections issued by the Council of Inspectors
                  General on Integrity and Efficiency.




                                        6
Appendix B
Management Comments to the Draft Letter Report




                                     7

Appendix B
Management Comments to the Draft Letter Report




                                     8

Appendix C
Major Contributors to This Report


                   Bill McCarron, Chief Inspector
                   Jim O’Keefe, Senior Inspector
                   Preston Jacobs, Inspector
                   Jennifer Burba, Inspector




                                        9
Appendix D
Report Distribution

                      Department of Homeland Security
                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Under Secretary, Management
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Information Officer
                      Chief Information Security Officer
                      ICE Audit Liaison

                      Office of Management and Budget
                      Chief, Homeland Security Branch DHS OIG Budget Examiner

                      Congress
                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                                            10
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
